                    Office of Inspector General
                   Corporation for National and
                            Community Service




    Semiannual Report
      to Congress
April 1, 2009 - September 30, 2009
      Fiscal Year 2009 Semiannual Report No. 2




  1201 New York Avenue, NW, Suite 830
         Washington, DC 20525
       Telephone (202) 606-9390
        Facsimile (202) 606-9397
         Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                                                                                    Table Of Contents


A Message From Acting Inspector General Kenneth Bach.................................. 1

Audit Section............................................................................................................ 3
      Audit Results ................................................................................................................................ 5
      Significant Audit Activity ............................................................................................................ 5
      Proposed Management Decisions With Which The OIG Disagreed ....................................... 7

Investigations Section............................................................................................. 9
      Investigative Results ................................................................................................................. 11
      Significant Cases And Activity ................................................................................................. 11

Review Of Legislation And Regulations .............................................................. 15
      Reauthorization .......................................................................................................................... 17
      Corporation Policy Council....................................................................................................... 17

Statistical And Summary Tables .......................................................................... 19
      I.      Inspector General Act Reporting Requirements........................................................... 21
      II.     Audit List ........................................................................................................................... 22
      III.    Reports With Questioned Costs ..................................................................................... 23
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 24
      V.      Summary Of Audits With Overdue Management Decisions ........................................ 25
      VI.     Reports Described In Prior Semiannual Reports Without Final Action...................... 25

Fiscal Year 2009 Performance Information ......................................................... 27


                               About The Office of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers In Service to America (VISTA), the National Civilian Community Corps, Learn and Serve
America, and Senior Corps. The OIG also examines Corporation operations, and State community
service programs that receive and distribute the majority of Corporation grant funds. Based on the
results of our work, and in addition to its audit reports and criminal and civil referrals based on our
investigations, the OIG recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the
final six months of Fiscal Year (FY) 2009. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.
                                                  Inspector General’s Message


               A Message From Acting Inspector
                         General Kenneth Bach
October 30, 2009

I am pleased to share with you our Semiannual Report to
Congress, which details the achievements of the OIG for the
period April 1 through September 30, 2009. During this
reporting period, the OIG continued its proactive oversight of the
Corporation and positioned itself to respond to a major
expansion of its volunteer programs.

Our Audit Section issued nine reports, resulting in more than $1
million of questioned costs, and numerous recommendations for
improvement in Corporation operations, policies and programs.

Our Investigations Section opened 16 new cases and closed 21
actions, including 12 cases with significant findings, resulting in
the recovery of more than $1 million in taxpayer dollars and the
potential recovery of more than $1.7 million for reinvestment in
national service.

During this period, our Audit Section began to focus on the core
operations of the Corporation. I believe that the findings and
recommendations resulting from such audits, evaluations and
reviews, which will also be a major element of our FY 2010
audit effort, providing the Corporation with insights and
information that will have a positive and wide-ranging impact on
all of its operations and programs in the years to come.

During this reporting period, we issued our Audit of Financial Management Survey Responses of New
Grantees, which identified serious and long-standing weaknesses in the Corporation’s evaluation of
the fiscal fitness of its new grantees. As a result of our findings, the Corporation has adopted new
policies, procedures, and documentation to measure whether applicants for new grants have the
financial systems, policies, and skills to properly administer Federal funds.

Another Audit project with wide-ranging impact was our Evaluation of the FY 2008 Budget Process.
This project, which was requested by Congress, included a comprehensive examination of the human
capital, policy, and information technology issues that put a severe strain on the Corporation, its
finances, and its managers and employees during FY 2008. In response, the Corporation has taken
a number of positive steps to ensure that the budget formulation and execution problems we
identified do not recur.

Also during this period, the OIG developed and began implementing a joint audit-investigative
initiative to meet the challenges of the American Recovery and Reinvestment Act of 2009 (ARRA),
which allocated $200 million in stimulus funds to the Corporation to create 10,000 additional
AmeriCorps positions and to increase the ranks of VISTA by 3,000 members. Under the Act, the OIG
received $1 million to finance its oversight.

We bolstered our staff by adding an audit manager and auditor who are concentrating on ARRA
issues. Using our audit and investigative data, plus monitoring data from the Corporation, we
developed a list of higher-risk ARRA grantees, which will be subject to a series of OIG audits, random



April 1, 2009 – September 30, 2009                                                              1
Inspector General's Message

 site visits, and special ARRA Fraud Awareness Briefings. As part of our effort, we further began the
 planning phase of a comprehensive audit of the Corporation VISTA program.

 At the same time, the OIG prepared to meet the oversight challenge of the Edward M. Kennedy Serve
 America Act, which took effect October 1, 2009. In the years ahead, this Act will triple the number of
 Corporation-supported volunteers in the field and create a whole new set of specialized volunteer
 Corps, and volunteer programs.

 To prepare for this unprecedented growth, we conducted a comprehensive review of the Act's
 provisions and closely monitored the Corporation's rulemaking process. We are also working closely
 with the Corporation to gain an understanding of its plans and timelines for implementation of the Act.

 As always, we were greatly assisted in all of our work with information, including calls and e-mails to
 our Fraud Hotline, supplied by Corporation managers and employees, grantee staff and program
 participants, and concerned citizens.

 I am confident that the OIG is well positioned to meet the challenges of greatly expanded national
 service and to continue to effectively meet its responsibility to support the Corporation, and protect
 taxpayers' investment, by preventing and deterring fraud, waste, and abuse.




 2                                                          Aprill, 2009 - September 30, 2009
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




April 1, 2009 – September 30, 2009                                      3
                                                                              Audit Section


Audit Results
 During this reporting period, the OIG Audit Section issued nine reports, as listed on page 22, which
 included several reviews designed to improve overall Corporation operations. We also initiated a
 series of proactive projects and audits to provide oversight of the $200 million allocated to the
 Corporation under the American Recovery and Reinvestment Act of 2009 (ARRA). Our efforts
 included:

        Launching our first comprehensive audit of VISTA, which received $65 million in ARRA
         funding to support 3,000 additional members.
        Initiating 21 accounting system reviews for higher-risk ARRA AmeriCorps grantees. The
         ARRA allocated $89 million to support 10,000 additional AmeriCorps members.
        Coordinating with the Corporation in a proactive manner to provide guidance to all ARRA
         grantees.

 The five grantee agreed-upon procedures/audits issued during this period, which focused on the
 Corporation’s State commission partners and National Direct grantees, questioned more than $1
 million in claimed costs. There were 18 audits in process at the end of this reporting period.

 During this reporting period the Audit Section devoted considerable resources to audits and reports in
 support of major actions undertaken by the OIG Investigations Section, including work requested by
 prosecutorial authorities. For example, our review of an AmeriCorps grantee’s financial data was
 furnished to Federal prosecutors for their consideration. The grantee agreed to repay the Corporation
 more then $400,000. These cooperative efforts have allowed the OIG to take advantage of the full
 range of its expertise in dealing with major cases involving allegations of fraud, waste and abuse.

 At the invitation of the Corporation’s Internal Control and Analysis Team, the Audit Section staff
 presented an internal control training session to Corporation managers. The session was provided to
 assist the Corporation’s OMB Circular A-123 Internal Control Program. The Audit Section staff also
 conducted training at the Corporation’s National Conference in San Francisco, where we briefed
 attendees, who are directly responsible for grantee accounting and reporting, on the OIG audit
 process, as well as common audit findings and problems. We further conducted training at the
 Corporation’s AmeriCorps*State and National Grantee Training Conference, where we provided
 guidance and assisted ARRA grantees in preparing for our upcoming accounting system audits.


Significant Audit Activity
 Audit of the Financial Management Survey Responses of New Grantees

 The OIG performed an audit of the Financial Management Responses of new grantees to determine if
 the Financial Management Surveys (FMS) performed by the Corporation were adequate to establish
 whether new grantees comply with applicable regulations and grant requirements. This initial
 oversight process plays a crucial role in ensuring that new Corporation grantees have adequate
 systems in place to comply with laws and regulations, and effectively manage Federal funds, prior to
 performing on Corporation grants.

 Many of the same problems identified by the OIG in a similar audit 11 years ago were found during
 this engagement. For example, we found that Corporation continued to rely on grantees’ self-
 reported and unverified responses to the FMS to determine whether the grantees’ systems met OMB
 Circular and grant requirements. The auditors also found that 63 percent of FMS documents we
 examined showed no evidence of a review by Corporation officials. We also found that 9 of 13 new
 grantees we selected for site visits had financial systems that were inconsistent with their FMS
 responses or were not in compliance with applicable regulations.



 April 1, 2009 – September 30, 2009                                                              5
Audit Section

 The Corporation generally agreed with the report recommendations and announced it will replace the
 FMS with a more detailed and verifiable document beginning with the 2010 grant cycle. The
 Corporation also implemented a financial system survey that requires extensive documentation of
 grantee financial systems, policies and procedures, and internal controls prior to receipt of their first
 grant award. This action will assist the Corporation in the preparation of desk reviews and site visits.
 The Corporation is also developing an on-line training course that will be completed by new grantees
 during the award process.

 Evaluation of the Fiscal Year 2008 Budget Process

 Acting on a request from staff of the House Appropriations Committee, Subcommittee on Labor,
 Health & Human Services, Education, and Related Agencies, the OIG conducted an Evaluation of the
 Fiscal Year 2008 Budget Process. The auditors concluded that the Corporation insufficiently
 managed the funds that it received in FY 2008 and, as a result, it was forced to curtail needed hiring,
 training, and the acquisition of basic supplies during the second half of FY 2008. If the Corporation
 had not moved to drastically cut back on its spending, it would have likely committed a violation of the
 legal constraints on spending by Federal agencies, i.e., the Anti-Deficiency Act.

 Budget areas of concern that emerged during FY 2008 included:

        The absence of a Deputy Chief Executive Officer: The lack of an operationally focused Chief
         Operating Officer (COO), or other senior official with responsibilities over organizational-wide
         administrative functions, placed a severe strain on the organization and its Chief Executive
         Officer. Moreover, the Corporation’s strong focus on program operations came at the
         expense of its management of other operations.

        Corporation Policy on Budget Execution: The Corporation lacked a current procedure
         manual or policy manual that identified the roles of personnel charged with monitoring budget
         execution.

        Corporation Policy on Budget Formulation: The Corporation lacked any formal written
         policies and procedures to govern the overall internal budget formulation process.

        Human Capital Issues: The Office of Budget experienced significant personnel turnover,
         including seven employees who departed in FY 2008. Additionally, employees received
         insufficient training to enhance their technical skills and knowledge in the budget area.

        Salaries & Expenses (S&E): The Corporation expended funds in its S&E account at an
         unsustainable rate during the first half of FY 2008. The Corporation would have exceeded
         budget limits had it not severely curtailed hiring and other operating expenses, a necessary
         move that further strained operations.

        National Civilian Community Corps (NCCC): The Corporation did not adequately document
         its decision-making and rationale during the NCCC budget formulation process, and was also
         unable to provide timely and accurate budget forecasting related to NCCC costs, including
         the establishment of two new NCCC campuses.

        Information Technology: The Corporation did not have an IT strategic plan in place to
         maintain the IT infrastructure, and to ensure its continued viability in the face of increased
         volume and the need to adopt next-generation modifications.

 The Corporation took steps to compensate for higher-than-projected salaries and expenses, as well
 to meet a series of challenges involving its technology systems.                Many of our report’s
 recommendations were aligned with the Corporation’s Management Action Plan that was developed
 in December 2008 with input from the Board of Directors and senior Corporation leadership. The OIG
 will continue to monitor the Corporation’s progress in addressing the issues raised in our evaluation.



 6                                                           April 1, 2009 – September 30, 2009
                                                                              Audit Section

 Audit Report 09-11 - Agreed-Upon Procedures and Evaluation of Corporation Grants to the
 Research Foundation of the City University of New York

 The OIG contracted for an agreed-upon procedures engagement of grant cost and compliance testing
 of Corporation-funded Federal assistance to the Research Foundation of the City University of New
 York (RFCUNY). As a result of applying the procedures, we questioned education awards of $16
 million and draw downs of nearly $800,000. In general, the questioned education awards were for
 members whose eligibility could not be established in accordance with the grant requirements for
 criminal background checks; and the draw downs were mostly for fixed fees related to members’
 eligibility in excess of fees earned.

 The auditors also identified the following pervasive compliance problems:

        Members did not always record actual service hours on their timesheets;
        Supervisory signatures on timesheets were not the members’ supervisors;
        Some members’ timesheet hours were not accurately recorded;
        RFCUNY did not require its members to submit their member contracts, forms, and
         timesheets in a timely manner;
        RFCUNY used preprinted member documentation and did not ensure that all member
         documentation was completed, signed and dated;
        RFCUNY entered incorrect member start dates in Corporation systems and in member
         contracts; and
        RFCUNY did not follow certain other AmeriCorps Provisions, particularly regarding
         background checks.

 The Corporation initially withheld additional funding to RFCUNY under the grant until the compliance
 issues in the agreed-upon procedures report were addressed. The Corporation conducted a site visit
 to address the compliance issues and then awarded the third and final year of the grant. The
 awarded amount decreased from $900,000 to $554,300 and the Corporation reduced the number of
 education awards from 3,600 to 2,300, which equates to a reduction of more then $6 million.

 Settlement: Audit Report 07–17 – Grants Awarded to Council on Aging of Volusia County, FL

 The Corporation reported that the Council on Aging of Volusia County agreed to a settlement
 regarding a prior OIG audit and investigative effort. It agreed to pay $202,277 in costs it charged to
 the grant when it improperly allowed its Foster Grandparent Program volunteers to take paid
 administrative leave to which the volunteers were not entitled. Additionally, the Corporation
 disallowed $54,393 pertaining to the Executive Director’s salary. The total recovery was $256,670.


Proposed Management Decisions With Which The OIG Disagreed

 The OIG did not entirely concur with the Corporation’s Proposed Management Decisions (PMDs) for
 the engagements below. One area of disagreement continues to be the recording of service hours
 prior to having a signed member contract in place. A new area of disagreement that has emerged is
 that the Corporation has allowed members to serve and participate without either obtaining a high
 school diploma or agreeing to obtain one. The Corporation believes that a high school diploma or
 agreement to obtain one is not required for members to serve, only for them to use the education
 award. The OIG disagrees, citing law and regulation.

 08-20, Agreed-Upon Procedures for Corporation for National and Community Service Education
 Award Program Grants to Regis University-Colorado Campus Compact.

 08-21, Agreed-Upon Procedures for Corporation for National and Community Service Education
 Award Program Grants to Mississippi Department of Education.


 April 1, 2009 – September 30, 2009                                                              7
Audit Section

 08-22, Agreed-Upon Procedures for Corporation for National and Community Service Grants
 Awarded to the Arab Community Center for Economic and Social Services.

 09-04, Agreed-Upon Procedures for Corporation for National and Community Service Grants
 Awarded to Jumpstart for Young Children, Inc.

 09-07, Agreed-Upon Procedures for Corporation for National and Community Service Grants
 Awarded to The Corps Network.

 09-09, Agreed-Upon Procedures for Corporation for National and Community Service Grants
 Awarded to National Council of La Raza.




 8                                                 April 1, 2009 – September 30, 2009
                                     Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste and abuse in Corporation for National and
                   Community Service programs and operations. It carries
                   out these responsibilities by investigating allegations of
                   criminal activity involving the Corporation’s employees,
                   contractors,     and    grant   recipients.      Criminal
                   investigations are presented to the U.S. Attorney or, in
                   some cases, the local prosecutor for criminal
                   prosecution and monetary recovery, where the facts
                   uncovered so warrant. Some investigative reports are
                   referred to Corporation management for its
                   administrative action.




April 1, 2009 – September 30, 2009                                       9
                                                                Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 16 new cases and closed 21
 cases, including 12 matters with significant findings. Our efforts resulted in the recovery of more than
 $1 million in taxpayer funds and the potential recovery of more than $1.7 million from persons and
 programs found to have engaged in fraud, waste, or abuse of Corporation resources.

 Our investigations also resulted in the successful criminal prosecution of one individual and seven
 matters that are pending adjudication. Two additional matters were resolved civilly by the
 Department of Justice.

 Proactive prevention is also the goal of our Fraud Awareness Program. OIG investigators regularly
 make multimedia training presentations to Corporation employees, program officials and members.
 In addition, investigators conduct unannounced visits to program sites during their official travel.
 These visits assist Corporation management in determining if grantees are adhering to goals and
 objectives and give grantees the opportunity to give feedback on how effectively Corporation
 management is supporting their programs. The presentations also generate calls to our Fraud
 Hotline, as well as problems reported by briefing participants.

 During this reporting period, OIG Investigations and Audit Sections jointly developed a risk
 assessment plan and conducted a review of all grantees receiving American Recovery and
 Reinstatement Act (ARRA) funding. We have prioritized proactive reviews of the higher-risk grantees
 we identified. These grantees will also be subject to random site visits and will be provided with
 Fraud Awareness Briefings that focus on the special provisions of the ARRA.

 Consisting of an Assistant Inspector General for Investigations, six agents with full Federal Law
 Enforcement Authority and an investigative assistant, the Investigations Section met the challenge of
 pursuing wrongdoers in Corporation operations that include hundreds of grantees and subgrantees in
 all 50 states and U.S. territories. We were assisted in our work by 52 calls, letters and e-mails to our
 Fraud Hotline and by referrals from Corporation managers, employees and program participants.


Significant Cases And Activity
 Misuse of AmeriCorps Members and Living Allowances

 The OIG has identified a pattern of misuse of AmeriCorps members and living allowances paid to
 those members from Federal program funds. By not exercising their responsibilities to ensure their
 AmeriCorps members performed service in compliance with the grant provisions, several grantees
 placed Federal program funds in jeopardy. Several grantees also failed to ensure the payment of
 living allowances to members was proper and in accordance with the grant and OMB circulars. They
 included:

 A director of a California AmeriCorps program misused AmeriCorps members by having them
 perform services that were not in compliance with the grant provisions. Our investigation found that
 AmeriCorps members, who were to have served as school tutors, performed such duties as personal
 assistant and chauffeur to a program official, in roles that supplanted school employees, and other
 non-grant related services. As a result of this misuse of the AmeriCorps members, we identified a
 loss of Federal funds totaling more than $845,000, of which $423,836 is to be recovered under the
 terms of the settlement.

 A director of another California AmeriCorps program improperly charged the living allowances for 30
 AmeriCorps members serving on one AmeriCorps grant to another, unrelated AmeriCorps grant, thus
 misapplying more than $200,000 in living allowances and more than $100,000 in education awards to



 April 1, 2009 – September 30, 2009                                                               11
Investigations Section

 ineligible AmeriCorps members. We are working with California Volunteers (State Commission) to
 recover the disallowed cost from the grantee.

 A director of a District of Columbia AmeriCorps program misused AmeriCorps members, who were to
 have served as school tutors, by assigning them to supervise part-time staff employees. As a result
 of this member misuse, the Government suffered a loss of more than $14,000 in taxpayer-funded
 living allowances and education awards. On July 27, 2009, this matter was referred to Corporation
 management for administrative action.

 A director of a Puerto Rico AmeriCorps program overpaid eight AmeriCorps members $1,500 each in
 living allowances. The members were paid a full year’s living allowance when, in fact, they served
 less than the full year, causing a loss of Federal funds totaling $12,000. The director also certified
 more than $17,000 in education awards for AmeriCorps members who were ineligible for the benefit.
 On May 13, 2009, this matter was referred to Corporation management for administrative action.

 A director of a Kentucky AmeriCorps program improperly prorated full living allowance payments to its
 AmeriCorps members over the period the members served. The action allowed the members to
 receive the full living allowance even though they had completed their terms of service in less than
 the 12-month period required to receive the full benefit. This action resulted in a recovery of
 $46,809.44 in Federal program funds.

 Proactive Review of AmeriCorps*National Civilian Community Corps (NCCC)

 The OIG conducted proactive reviews of the AmeriCorps*National Civilian Community Corps
 campuses, during which we provided Fraud Awareness Briefings to the NCCC staff. We also
 reviewed NCCC management’s internal controls over procurement, property inventory, purchase card
 use, and member fines. As a result of our review, we identified one employee who violated ethics
 rules when he accepted funds from a local vendor and deposited the funds into his personal checking
 account. We further identified two employees who improperly allowed other employees to use their
 Government-issued purchase card. We also identified minor internal control weaknesses that were
 corrected on the spot.

 We also followed up on previous NCCC campus visits that uncovered serious problems with
 inventory, equipment maintenance and physical and/or IT security. All areas showed remarkable
 improvement during our return visits.

 Peer Review

 The Office of Inspector General, Railroad Retirement Board, conducted a peer review of our
 Investigations Section. It issued a favorable report, stating “the system of internal safeguards and
 management procedures for the investigative function of the CNCS OIG in effect for the year ended
 May 2009 is in full compliance with the quality standards established by the PCIE and the Attorney
 General Guidelines. The safeguards and procedures provide reasonable assurance that the CNCS
 OIG is conforming with professional standards in the conduct of its investigations.”




 12                                                        April 1, 2009 – September 30, 2009
                                                                                             Investigations Section

                                                       Summary Of Cases
      Opened and Closed
       Cases Open at Beginning of Reporting Period                                                          33
       New Cases Opened                                                                                     16
       Cases Closed this Period W ith Significant Findings                                                  12
       Cases Closed this Period W ith No Significant Findings                                               9
       Total Cases Closed                                                                                   21
       Cases Open at End of Reporting Period                                                                28
      Referred
       Cases Referred for Prosecution                                                                       1
       Cases Accepted for Prosecution*                                                                      3
       Cases Declined for Prosec ution*                                                                     3
       Cases Pending Prosecutorial R eview                                                                  0
       Cases Pending Adjudication                                                                           7
      Recommendations to Management
       Investigative R ecomm endations R eferred to Management                                              20
       Investigative R ecomm endations Pending M anagem ent Action this Reporting Period                    7
       Investigative R ecomm endations Pending M anagem ent Action from Previous Reporting
                                                                                                            1
       Periods

     *This includes c ases re ferred for prose cution during the p revious re po rtin g p eriod.




April 1, 2009 – September 30, 2009                                                                               13
                             Review Of Legislation And
                                          Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The OIG reviews legislation
                   and regulations to determine their impact on the cost
                   and efficiency of the Corporation’s administration of its
                   programs and operations. It also reviews and makes
                   recommendations on the impact that legislation and
                   regulations may have on efforts to prevent and detect
                   fraud, waste and abuse.        The OIG draws on its
                   experience in audits and investigations as the basis for
                   its recommendations.




April 1, 2009 – September 30, 2009                                     15
                                Review Of Legislation And Regulations


Reauthorization
 During the last reporting period, Congress introduced and passed the Edward M. Kennedy Serve
 America Act, (Serve America Act) which reauthorized the Corporation, and amended as well as
 added certain sections to the National and Community Service Trust Act of 1993. The Serve America
 Act was subsequently signed into law by President Obama, and its effective date was October 1,
 2009.

 To implement the time-sensitive changes brought about by the Serve America Act, the Corporation
 published in the September 10, 2009, edition of the Federal Register, without public comment, an
 interim final rule which amends and adds to existing Corporation regulations concerning the
 AmeriCorps State/National, Senior Corps, and Learn and Serve America programs.

 Among the changes to the regulations necessitated by the new law, the final rule amends the current
 criminal background check rules to apply to all individuals receiving a Corporation financial benefit,
 rather than being limited to those with recurring access to vulnerable populations; prohibits
 AmeriCorps members from providing abortion services or referrals; permits AmeriCorps members to
 complete a term of service in less than nine months, rather than the nine months to one year
 stipulated under the old law; lowers the age of eligibility in the Senior Companion program from 60 to
 55; and now disqualifies anyone convicted of murder from AmeriCorps or Senior Corps service.

 The Corporation intends to engage in future rulemakings, presumably with public comment, to
 implement other numerous, but less time-sensitive, provisions of the Serve America Act. The OIG
 will be closely monitoring these developments.


Corporation Policy Council
 The OIG continued its active participation in the Corporation’s Policy Council, which is charged with
 developing and amending internal policies covering all operations. During this period we commented
 on a number of proposed policies, including Funding Approval Procedures and Administrative Control
 of Funds. OIG comments on those policies were for the most part accepted by Corporation
 management and the policies were revised accordingly. An OIG observer participates in all Policy
 Council meetings.




 April 1, 2009 – September 30, 2009                                                             17
                                             Statistical And
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




April 1, 2009 – September 30, 2009                                  19
                                                                                        Tables


I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                17

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         25
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        13

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of      22
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      23
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      24
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        25
                   which no management dec ision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspec tor            7
                   General disagrees




 April 1, 2009 – September 30, 2009                                                           21
Tables


II.            Audit List

                                               April 1, 2009-September 30, 2009
      Report                                                                  Dollars               Dollars          Funds Put To
                                      Report Name
      Number                                                                 Questioned         Unsupported           Better Use
                                                                                              (Dollars in thousands)
      09-10    Agreed-Upon Procedures for Corporation for National and                    0                   0                     4
               Community Service Education Award Program Grants to
               the College of New Jersey

      09-11    Agreed-Upon Procedures for Corporation for National and               773                    730                     0
               Community Service Education Award Program Grants
               Awarded to the Research Foundation of the City
               University of New York
      09-11A   Evaluation of Corporation for National and Community                       0                   0             45,100
               Service Grants Nos. 04EDHNY003 and 07EDHNY002
      09-12    Agreed-Upon Procedures for Corporation for National and               235                    174                     1
               Community Service Grants Awarded to Volunteer New
               Hampshire
      09-13    Agreed-Upon Procedures for Corporation for National and                29                      0                     4
               Community Service Grants Awarded to the Civic Ventures

      09-14    Agreed-Upon Procedures for Corporation for National and                24                      0                 14
               Community Service Grants to Citizen Schools, Inc.

      09-15    Audit of the Financial Management Survey Responses of                  15                     12                     0
               New Grantees

      09-16    Evaluation of the Fiscal Year 2008 Budget Process                          0                   0                     0

      09-17    Audit of the National Service Trust Fund Status Report for                 0                   0                     0
               the Year Ended September 30, 2008



                                         TOTAL                                    $1,076                  $916             $45,123




  22                                                                        April 1, 2009 – September 30, 2009
                                                                                      Tables


III.          Reports With Questioned Costs


                                                                      Federal Costs

                    Report Category                    Number Questioned         Unsupported
                                                                      (Dollars in thousands)
       A. Reports for which no management decision       8           $189                           $61
          had been made by the commencement of the
          reporting period

       B. Reports issued during the reporting period     5          $1,076                          $916

   C. Total Reports (A + B)                              13         $1,265                          $977

   D. Reports for which a management decision            8           $189                           $61
      was made during the reporting period

          I. Value of disallowed costs                                $57                           $14

          II. Value of costs not disallowed                          $132                           $47

       E. Reports for which no management decision       5          $1,076                          $916
          had been made at the end of the reporting
          period (C minus D)

       F. Reports with questioned costs for which no     0             $0                            $0
          management decision or proposed
          management decision was made within six
          months of issuance




  April 1, 2009 – September 30, 2009                                                           23
Tables


IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                    Report Category                   Number          Dollar Value
                                                                 (Dollars in thousands)
      A. Reports for which no management decision       7                 $615
         had been made by the commencement of
         the reporting period

      B. Reports issued during the reporting period     5                $45,122

      C. Total Reports (A+B)                            12               $45,737
      D. Reports for which a management decision        8                 $618
         was made during the reporting period

         i. Value of recommendations agreed to by                         $105
         management

         ii. Value of recommendations not agreed to                       $513
         by management

      E. Reports for which no management decision       4                $45,119
         had been made by the end of the reporting
         period
      F. Reports with recommendations that funds        0                  $0
         be put to better use for which no
         management decision or proposed
         management decision was made within six
         months of issuance




 24                                                          April 1, 2009 – September 30, 2009
                                                                                   Tables


V.        Summary Of Audits With Overdue Management Decisions



                                                                 Mgmt.      Status at End of
     Report                             Federal Dollars         Decision    Reporting Period
     Number          Title               Questioned               Due          (09/30/09)
                                       (Dollars in thousands)


                                                  None

                     Total                      $0




VI.       Reports Described In Prior Semiannual Reports
          Without Final Action


      Report                                                     Date         Final
      Number                   Title                            Issued     Action Due

                                       None




 April 1, 2009 – September 30, 2009                                                     25
                                        Fiscal Year 2009
                                Performance Information
                   The section summarizes the Office of Inspector
                   General’s accomplishments and performance measures
                   in support of OIG strategic goals and provides a
                   comparison to previous reporting periods.




April 1, 2009 – September 30, 2009                              27
                                                         Performance Information


                        Quantitative Audit Performance Information

                                          2004     2005      2006      2007      2008      2009
Number of reports issued                  23        21        40        20        23        19

Number of reports issued linked to         6         3        12         7         7         7
improving Corporation management (OIG
Goal One)

Number of recommendations linked to       45        40        139       24        22        51
improving Corporation management (OIG
Goal One)

Number of reports issued linked to        22        18        30        16        16        12
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Number of recommendations linked to       139       142       179       164       194       126
protecting the integrity of Corporation
programs, operations, and financial
management (OIG Goal One)

Total number of audit recommendations     139       169       316       182       216       176

Percent of recommendations accepted by    99%      99%       100%      92%        93%       86%
the Corporation


Strategic Goals

The Office of Inspector General operates independently from the Corporation and seeks to achieve a
separate, but related, set of strategic goals. The OIG’s strategic goals are designed to promote
economy, efficiency, and effectiveness, and to prevent and detect fraud, waste and abuse, and
mismanagement in Corporation programs and operations. The general purpose of these goals is to
improve the Corporation’s ability to meet its responsibilities and achieve its mission.

Goal One:     Ensure that OIG activities support the Corporation’s mission by emphasizing
examinations of critical programs and operations.

Goal Two: Communicate effectively with the Corporation Board of Directors, senior management
and staff, grantees and sub-grantees, the public, Congress, and other parties as appropriate.

Goal Three: Strengthen the OIG’s ability and readiness to have maximum impact on the most
significant issues facing the Corporation and its programs.




April 1, 2009 – September 30, 2009                                                         29
Performance Information


                       Investigations Performance Information
           Fiscal Year             FY 2005    FY 2006      FY 2007    FY 2008       FY 2009
  Investigative actions opened       57         58           62         41            40

  Investigative actions resolved     53         60           55          51           43
  and closed

  Average monthly caseload           37         38           44          38           32


  Investigative matters resolved     45         40           54          68           40
  without opening a separate
  investigative action

  Referrals for prosecution          20         12           16           8               3

  Investigative recoveries         $234,691   $268,839    $838,569    $947,540    $1,317,227

  Cost avoidance                    $2,363    $74,586     $418,900     $81,731     $300,000


  Administrative or management       24         20           35          29           16
  actions taken




 30                                                  April 1, 2009 – September 30, 2009
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                       All information is confidential.

                       You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov


                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
